No. 19-1031
IN THE

$'uprcmc <!Court of tbc Wnitcb $'tatcs
ERIN CAPRON; JEFFREY PENEDO; CULTURAL CARE,

INC., d/b/a CULTURAL CARE Au PAIR,

Petitioners,

V.

OFFICE OF THE ATTORNEY GENERAL OF THE
COMMONWEALTH OF MASSACHUSETTS;
MAURA T. HEALEY, in her capacity as Attorney
General of the Commonwealth of Massachusetts,

Respondents.

CERTIFICATE OF SERVICE
As required by Supreme Court Rule 29.5 and the April 15, 2020 Order of this
Court, I certify that the Brief of Amici Curiae Host Families in Support of Petitioners
in Capron v. Office of the Attorney General of the Commonwealth of Massachusetts,
No. 19-1031, was served via electronic mail on all parties required:
Paul D. Clement
KIRKLAND & ELLIS LLP
1301 Pennsylvania Avenue, NW
Washington, DC 20004
(202) 389-5000
paul.clement@kirkland.com

Counsel for Petitioners

Robert E. Toone Jr.
OFFICE OF THE MASSACHUSETTS
ATTORNEY GENERAL
One Ashburton Place
Boston, MA 02108
(617) 963-2178
robert. toone@mass.gov

Counsel for Respondents

I declare under penalty of perjury that the foregoing is true and correct.

Date: April 16, 2020

